M

il ■

IN THE
SUPREME COURT OF THE UNITED STATES
YVONNE O. REIGNAT-VODI
PETITIONER,
v.

MARYLAND MOTOR VEHICLE ADMINISTRATION
RESPONDENT (S)

ON PETITION FOR A WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS FOURTH CIRCUIT

PETITION FOR A WRIT OF CERTIORARI

Yvonne O. Reignat-Vodi
1810 Metzerott Road Apt47
Adelphi, MD 20783
Tel: 240-475-1876/240-393-9125

Received
SEP - 2 2021

Email: pastor@shepherdsofzion.org

I.
(i)

Questions Presented

Did the courts follow the Procedural Due process subject to the 14th
Amendment due process protection?

(ii)

Did the courts follow the Civil Due Process clauses of the Fifth, Sixth and
Fourteenth Amendments the right for Petitioner to present evidences, and
witnesses in this case?

(iii)

Can a court deny the filed Writ of Certiorari without providing explanation
as to why the Writ of Certiorari has no show and not desirable in public
interest but proceed with a dismissal of the case without a trial?

(iv)

Can a court deny the issuance of a Driver Education Instructors License
and Certification Badge having known that the instructor did not commit
any violation but proceeded with the dismissal of the case without a trial?

(v)

Did the Maryland State courts ignore the fundamental principles of due
process in rejecting the case of Petitioner’s Driver Education Instructors
License and Certification Badge?

(vi)

Did the Administrative court failed to transfer Agency records to the Circuit
Court of Prince Georges County Maryland that should be part of the
fundamental process in the case of the brief trial held on October 15, 2019?

(vii)

Whether a pro se Petitioner should be denied request for transfer of (OAH)
Agency records from the Circuit Court of Prince Georges County Maryland
as a requirement that the tribunal prepare records of the evidence
presented as stated in the Fifth and Fourteenth Amendments?

i

II. LIST OF PARTIES

All parties appeal in the caption of the case on the cover page. The party (s)
involve is active with this proceeding.

Related Proceedings:
YVONNE O. REIGNAT-VODI D/B/A SHEPHERDS DRIVING SCHOOL
v. MARYLAND MOTOR VEHICLE ADMINISTRATION
Shepherds Driving School Inc.
(i)

Maryland Court of Appeals Case No. COA-PET-0005-2021

(ii)

Maryland Court of Special Appeals Case No. CSA-REG-2389-2019

(iii)

Circuit Court of Prince Georges County Case No. CAL19-18504.

(iv)

Office of Administrative Hearing Case No. OAH No. MDOT-MVA-15-1907115

11

III. Table of Contents
Pages
(i)

Questions Presented

(ii)

List of Parties

n

(iii)

Related Proceedings

n

(iv)

Table of Contents

(v)

Table of Authorities

(vi)

Petition for Writ Of Certiorari

1

(vii)

Opinion Below

1

l

m
IV

1

(viii) Jurisdiction
(ix)

Constitutional Provision Involved

(x)

Statement of the Case

2,3

4

1. The Maryland Motor Vehicle Administration falsely claimed during the
Administrative hearing that Petitioner was not licensed to conduct a
Driving School neither held a Driver Education Instructor License.
2. The Maryland Motor Vehicle Administration falsely claimed during the
Administrative hearing that Petitioner was not employed as a driving
instructor by a licensed driving school
16

(ix)

Argument

(xi)

32
REASONS FOR GRANTING THE WRIT
A. The lower court did not follow the procedural due process in the case
of the Driver Education Instructor’s License and Certification Badge.
B. The courts did not follow the V, IV, and XIV Amendments of the
United States Constitution on the case of the Driver Education
Instructor’s License and Certification Badge.
in

Table of Contents (Cont’d)

(ix)

CONCLUSION,

(xii)

APPENDIX

37

IV

IV. Table of Authorities
Cases
Pages
19

Anderson v. Liberty Lobby Inc., All U.S, 242, (1986)
Department of Public Safety & Correctional Services

19

v. Cole, 79 342 Md. 12 (1996)

V. Constitutional Provisions Involved
Pages
United States Constitution, Amendment V,

> > 5

2

United States Constitution, Amendment VI

3

United States Constitution, Amendment XIV,

3

Statutes & Rules
2

28 U.S.C. § 1257 (a)
Federal Rule of Civil Procedure Rule 60 (a)

v

15

Statutes & Rules Cont’d
Pages
Code of Maryland Agency Regulations, Driver Education Program, COMAR
5

11.23.02.17B(1)(2)(3)(4)(5)(6)
Code of Maryland Agency Regulations, Driver Education Program, COMAR

5

11.23.02.22(B)
Code of Maryland Agency Regulations, Driver Education Program, COMAR

5

11.23.02.19(A)
Code of Maryland Agency Regulations, Driving Schools, COMAR

6

11.23.01.17AB(1)(2)

Code of Maryland Agency Regulations, Driver Education Program, COMAR
8

11.23.02.14AB(l)(a)(b)

Code of Maryland Agency Regulations, Driving Schools, COMAR
10

11.23.01.17E(1)(2)

vi

Statutes & Rules Cont’d
Pages
Code of Maryland Agency Regulations, Driver Education Program, COMAR
10

11.23.02.19ABC(1)(2)
Code of Maryland Agency Regulations, Driving Schools, COMAR

13

11.23.01.12.13.14.15.16.17
Code of Maryland Agency Regulations, Driving Schools, COMAR

24

11.23.01.13
Maryland Code Annotation. Transportation, II Article 15-109, COMAR

25

TR12-203(b)(l) and 15-110
Code of Maryland Agency Regulations, Driving Schools, COMAR

32

11.23.01.04.05,(A)(B)(C)
Code of Maryland Agency Regulations, Driving Schools, COMAR

32

11.23.01.15(A)(B)(C)(D)
Code of Maryland Agency Regulations, Driving Schools, COMAR

32

11.23.01.15.16(A)(B)(C)
Vll

IV.

Petition for Writ of Certiorari

Petitioner, Yvonne 0. Reignat-Vodi received a notice of hearing from the
Maryland Motor Vehicle Administration dated October 15, 2019 at the Office of
Administrative hearing,11101, Gilroy Road, Hunt Valley, MD 21031. Petitioner was
certified as a Driver Education Instructor by the Maryland Motor Vehicle
Administration from May 2017 to March 7. 2019. Petitioner respectfully petition the
United States Supreme Court for a Writ of Certiorari to review the judgement of the
Court of Appeals Maryland in the case of Petitioner’s Driver Education Instructors
License and Certification Badge.

V.

Opinions Below

The decision of the Maryland Court of Appeals dismissing the case of Petitioner
Driver Education Instructors License certification badge was unfair and against the
United States Constitutional Amendments. The Court of Appeals Maryland denied
Petitioner Petition for Writ of Certiorari on April 23, 2021 and dismissed the case of
the Driver Education Instructors license and Certification badge on June 8, 2021. The
Order of Chief Judge Mary Ellen Barbera of the Court of Appeals is attached at
Appendix (A) at la.
VI.

Jurisdiction

The Court has jurisdiction over the courts but has false judgements and
constitutional issues. Petitioner/Pro Se filed a Petition for Writ of Certiorari on time
with the Court of Appeals Maryland but was denied on April 23, 2021 and dismissed
1

the case of the Driver Education Instructors License and Certification Badge on June
8, 2021. Petitioner submitted two Briefs to the Court of Special Appeals on time but
was denied for the driver education instructor license and certification.

Three

Motions were submitted with the court for extension of time while awaiting the
Administrative Agency records to be transfer to the Maryland Court of Special
Appeals. The final Briefs were submitted including agency records on November 2,
2020. The case of the driver education instructors license, and certification was
dismissed on October 13, 2020; Petitioner invokes the Court’s Jurisdiction under 28
U.S.C. § 1257 (a) having timely filed the Petition for a Writ of Certiorari within ninety
days of the Court of Appeals Maryland judgement in the case Petitioner’s Driver
Education Instructor’s License and Certification Badge.

VII. Constitutional Provisions Involved
United States Constitution , Amendment V:
No person shall be held to answer for a capital, or otherwise
infamous crime, unless on a presentment or indictment of a Grand Jury,
except in cases arising in the land or naval forces, or in the Militia, when
in actual services in time of War or public danger; nor shall any person
be subject for the same offence to be twice put in jeopardy of life or limb;
nor shall be compelled in any criminal case to be a witness against
himself, nor be deprived of life, liberty, or property, without due process

2

of law; nor shall private property be taken for public use, without just
compensation.

United States Constitution , Amendment VI:
In all criminal prosecutions, the accused shall enjoy the right to speedy
and public trial, by an impartial jury of the State and district wherein the
crime shall have been committed, which district shall have been previously
ascertained by law, and to be informed of the nature and cause of the
accusation; to be confronted with the witnesses against him; to have
compulsory process for obtaining witnesses in his favor, and to have the
Assistance of Counsel for his defense.

United States Constitution , Amendment XIV:
All persons born or naturalized in the United States and subject
to the jurisdiction thereof, are citizens of the United States and of the
State wherein they reside. No State shall make or enforce any law which
shall abridge the privileges or immunities of citizens of the United States;
nor shall any State deprive any person of life, liberty, or property,
without due process of law; nor deny to any person within its jurisdiction
the equal protection of the laws.

3

Statement of the Case
Petitioner was licensed by the Maryland Motor Vehicle Administration as a
Certified Driver Education Instructor to provide thirty-six (36) hours Driver
Education program from the period June 2017-March 2019. During these times
Petitioner performed all duties as a Certified Driver Education License Instructor for
both classroom and behind the wheel lessons and as a driving school owner without
any violation. Petitioners abide to all rules and regulations in COMAR 11.23.01.
Driver Education Program by the Maryland Motor Vehicle Administration for
certified instructors and Driving School Owners.
On June 21, 2017 Petitioner was approved by the Maryland Motor Vehicle
Administration for an “APPRENTICE PERMIT” on 06/26/2017 with a licensed
certification badge number (35488). The Maryland Motor Vehicle Administration
issued a driver education instructor Photo Identification badge to be able to perform
the duties of a certified driver education instructor. See Appendix 93a. This process
is required by the Maryland Motor Vehicle Administration as the first step to become
a full licensed certified driver education instructor. The approval for Apprentice
permit by the Maryland Motor Vehicle Administration involves training from another
driving school. The owner of another driving school must present all qualifications
and certificate to the Maryland Motor Vehicle Administration to verify that the
instructor is qualified to be a full licensed instructor. Petitioner driver’s education
training records was sent by Alfredo’s Driving School, located at 111 Chinquapin
4

Road #101 , Annapolis, MD, 21401. Petitioner took classroom certification training
with Greg’s Driving School, Main Office, located at 1502 South Main Street Suite
303, Mount Airy, MD 21771. All documents related to Petitioner driver education
instructors training from both driving schools were submitted to the Maryland Motor
Vehicle Administration.
It’s obvious that the Maryland Motor Vehicle Administration Driver Education
Division is responsible for the approval of all qualified apprenticeship in transitioning
into the driver education instructor’s certification program. After months of training
Petitioner became a certified instructor for both classroom and behind the wheel
lessons,
On June 20th 2017, Petitioner received a notification from the Maryland Motor
Vehicle Administration Driver Instructional Services Division (DISD) that Petitioner
Apprentice Instructor’s Permit will be expiring on December 21, 2017. Specifies in
COMAR 11.23.02.22(B). Maryland Code of regulations 11.23.02.17B(1)(2)(3)(4)(5) &
(6) specifies the steps to attain a certified Driver Education License. The above rules
were followed by Petitioner.

The Driver Instructors Licensed Certification was

approved by the Maryland Motor Vehicle Administration for two (2)years. Maryland
Code of Regulations 11.23.02.19(A). A transition of Apprentice Instructor Permit to a
Certified Driver Education Instructor from 06/26/2017 - 06/21/2019. See Appendix
92a, 93a. There was no violation committed by Petitioner against the Maryland Motor
Vehicle Administration.

5

On December 21, 2019 Petitioner was a full licensed Certified Driver
Education instructor for both classroom and behind the wheel by the Maryland Motor
Vehicle Administration.

As a certified Driver Education Instructor, petitioner

performed not only the duties of an instructor but as the Owner of Shepherds Driving
School overseeing the general operations of the Shepherds Driving School business.
Renewing a Driver Instructor license indicates that Petitioner have been a certified
Driver Education instructor. Maryland Code of Regulations 11.23.01.17A.B.(1)(2),
Renewing a Driving Instructor’s License. The above COMAR Code of Maryland
Agency Regulations 11.23.01 driving schools and driver instructor license
certification badge was followed as Petitioner have been teaching driver education
course since 2017-2019. Petitioner was motivated to help students obtained their
grades and become a certified Driver Education Instructor while operating Shepherds
Driving school. There was no violation committed against the Maryland Motor
Vehicle Administration. All requirements were met for Petitioner Driver Education
Instructors License and Certification Badge.
Petitioner received a notice from the Maryland Motor Vehicle Administration
Driver Education Services Division dated April 22, 2019 stated, that the instructors
licensed assigned to Petitioner will expire on 06/21/2019. During this time Petitioner
had filed an appeal in the case for Shepherds Driving School with the Circuit Court
of Prince Georges County Maryland. See Appendix 91a.
On May 20, 2019 Petitioner received the Order from the Administrative court
that Petitioner Driver Education Instructors License, issued on May 24, 2017 has
6

been revoked. Incorrect date of the issuance of Petitioner Driver Education License
as the Administrative Court was wrongfully referring to Shepherds Driving School’s
License. However, this decision came as a shock to Petitioner as the Maryland Motor
Vehicle Administration failed to specify the Administrative Court decision of May 20,
2019 against Shepherds Driving School operational license and the Driver Education
Instructor License.

Petitioner immediately notified the Maryland Motor Vehicle

Administration Counsel David C. Merkin via email that there was an error as to
whether the decision by the Administrative court on May 20, 2019 has anything to do
with Petitioner Driver Education Instructor’s License and Certification Badge.
Petitioner did not get a response from Counsel David C. Merkin of the Maryland
Motor Vehicle Administration on the mistakes and/or irregularity neither did the
Administrative Court made any amendments to the errors of May 20, 2019 on time.
See Appendix 22a- 23a.
On May 30, 2019 the Maryland Motor Vehicle Administration Counsel
David C. Merkin sent a letter to the Maryland Motor Vehicle Administration
requesting that clerk directed the matter of the change in the order of May 20, 2019
to Administrative Law Judge Michael Wallace revising the Administrative court
decision due to mistakes and/or irregularities and to correct the order. Petitioner did
not hear from the Administrative Counsel David C. Merkin neither the
Administrative court.
On June 10, 2019 the Maryland Motor Vehicle Administration Counsel David
C. Merkin received the decision from the Administrative court amending the decision
7

dated June 6, 2019. The decision was amended from the driver education instructors
licensed and certification badge to Shepherds Driving School’s license to provide
service.
On June, 14 2019 after the Administrative court amended decision was
received, Petitioner proceeded with a criminal background record check with the
Department of Safety and Correctional services. The background check was done at
the Administrative Branch in Frederick Maryland. Maryland Code of Regulations
11.23.02.14A.B.(l)(a)(b); The above COMAR rule was followed, and finger printing
was done by the Maryland Motor Vehicle Administration. See Appendix 106a. Even
though there was a delay with the mailing process it took about a week for petitioner
to receive a verification of the criminal records processed from the Maryland Motor
Vehicle Administration as a proof a Petitioner’s Driver Education License renewal.
On June 13, 2019 Petitioner went to Alcantara Driving School to renew her
Driver Education Instructors license and Certification badge. Alcantara Driving
School accepted petitioner’s application and submitted it to the Maryland Motor
Vehicle Administration on June 13, 2019. A confirmation message was received by
Alcantara Driving School that the renewal package was received by the driver
education division, Room 207, Glen Burnie, Maryland Motor Vehicle Administration.
See Appendix 96a, 97a.
On June 22, 2019 an assessment was made by Alcantara Driving School
certifying that Petitioner have done all hours for in classroom and behind the wheel
instruction for the renewal of the driver education instructor license. The Owner of
8

Alcantara Driving School Mr. Raphael Alcantara informed to the Maryland Motor
Vehicle Administration that Petitioner was in compliance with all laws, regulations,
policies, and rules during the program and that Petitioner is ready to be evaluated to
see if all requirements were met. See Appendix 107a. Petitioner’s evaluation went
well, but still awaits the renewal of her driver instructor’s license. Petitioner chose
not to work for Alcantara driving school until a renewal of the driver instructor
license. The Maryland Motor Vehicle Administration failed to renew driver education
instructor’s certification which could have granted me access to work for another
driving school and take care of my family, instead the Maryland Motor Vehicle
Administration waited for the driver education instructors license to expire and
created false allegations against petitioner.

Petitioner did not comply with the

certification to work for Alcantara Driving School as the Driver Education Instructor
Licensed Certification Badge had expired in 06/21/2019. Petitioner was fully aware
of not committing any violation with the Maryland Motor Vehicle Administration by
taking up an employment with Alcantara Driving School.
On July 8, 2019 Petitioner received a letter from the Maryland Motor Vehicle
Administration stating that the Administration receive the application from
Alcantara Driving School and confirmed that Petitioner’s application was hand
delivered by the Secretary of Alcantara driving school on 06/21/2019. The was not
true as the application was submitted on June 13, 2019 prior to the deadline. The
Maryland Motor Vehicle Administration Driver Education Division stated that the
application can’t be renewed due to a late submission even though it was submitted
9

on time. If at all, the application was late, the Maryland Motor Vehicle
Administration knew about the delay as it was due to the mistakes and/or
irregularity on the May 20, 2019 Administrative court decision by Administrative
Law Judge Michael Wallace. See Appendix 23a. Several emails of communication
were sent to the Maryland Motor Vehicle Administration Driver Education
Instructional Division Assistant Manager Mr. William Kraft, explaining that the
application was submitted on time, but due to the Administrative court decision of
May 20, 2019 Petitioner was unable to renew the Driver Education Instructor License
and Certification Badge. The Maryland Motor Vehicle Administration failed to
correct the mistakes and/or irregularity and get back to Petitioner on time with the
Amendments from the Administrative Court.
The renewal of the Driver instructors badge certification stated in Maryland
Code of Regulations 11.23.01.17E,(1)(2) were met by Petitioner in the case of the
Petitioner was still a certified Driver

Driver Education Instructors License.

Education Instructor while at the same time going through litigation for Shepherds
Driving School. The instructor license certification did not expire until 06/21/2019.
In as much, Maryland Code of regulations 11.23.02.19ABC(1)(2) has already been
done by another driving school.

The notion of the Maryland Motor Vehicle

Administration for Petitioner to reapply for the second time to become a driver
instructor does not make sense as Petitioner have already been a certified instructor
for the past two years and had been a driving school owner. The next step should
have been the renewal of Petitioner’s instructors licensed and not as a new applicant.
10

On February 7, 2020, Petitioner filed an appeal with the Maryland Court of
Special Appeals for Driver Education Instructor License and Certification Badge.
First, to be clear, there were no Agency records transferred from the Circuit Court of
Prince Georges County Maryland to the Court of Special Appeals at the start of the
case of the Driver Education Instructor license and certification. Agency records
should have been transferred for the court to be able proceed with the case, instead
the court proceeded issuing out fake orders while Petitioner await Agency records
from the Circuit Court of Prince Georges County Maryland to the Maryland Court of
Special Appeals Maryland, but the court failed to do so. This is in violation of the
constitutional laws.
Due to the delay of the Circuit Court of Prince Georges County transferring
Agency records to the Court of Special Appeals, Petitioner filed three (3) motions to
extend time for filling Petitioner corrected briefs. There were no delays as the motions
were filed on time. First Motion to extend filling was filed on August 26, 2020; Second
Motion filed on September 14, 2020 and Third Motion file on September 24, 2020 .
Two of the motions were denied by the Court of Special Appeals, knowing very well
that the Circuit Court of Prince Georges County Maryland have not transfer agency
records to complete the Petitioner’s Briefs.

The second motion to Extend Time

requested by the Maryland Court of Special Appeals requested that Petitioner filed
it corrected Briefs for the case of the Shepherds Driving School. Petitioner filed two
Briefs with the Court of Special Appeals and both briefs were denied because there

11

were no Agency records for its inclusion to complete Petitioner’s corrected Briefs.
Then, the third motion to extend time for filing was submitted to the Court of Special
Appeals on September 24, 2020.
On August 11, 2020, the Court of Special Appeals issue an order directing the
Circuit Court of Prince Georges County Maryland to transmit Agency records with
its inclusion. A third motion of extension of time was submitted to the Court of
Special Appeals on September 24, 2020. Petitioner knowing that the transfer of
Agency records to the Court of Special Appeals were late for the submission of
corrected briefs, eventually Petitioner submitted the third briefs including agency
records for the driver education instructor license and certification badge. Also, a
partial hearing at the office of Administrative hearing (OAH) on October 15, 2019
was not included in the transcript that was sent to the Circuit Court of Prince Georges
County Maryland.
There was a lot of inconsistencies with the Court orders identified by Petitioner
to the Court of Special Appeals but were not corrected. Clerical mistakes on case
numbers made on the Court docket entries were identified by Petitioner to the Court
of Special Appeals but no action was taken. The Court of Special Appeals granted
the Maryland Motor Vehicle Administration an extension of time to submit its briefs,
while Petitioner was still waiting for Agency records to be transferred from the
Circuit Court of Prince Georges County Maryland to the Court of Special Appeals. No
briefs were submitted to the Court of Special Appeals by the Maryland Motor Vehicle
Administration. The third Briefs with Agency records and its inclusion was submitted
12

to the Court of Special Appeals on October 29, 2020 and November 2nd 2020
respectively.
Transfer of Agency records from the Circuit Court of Prince Georges County
Maryland to the Court of Special Appeals is a requirement that the tribunal prepare
record of the evidence presented as stated in the Fifth and Fourteenth Amendments
of the United States Constitution. The Court of Appeals failed to acknowledge the
negligence of the Circuit Court of Prince Georges County Maryland for not
transferring Agency records on time but willfully dismiss the case of Petitioner’s
Driver Education Instructors Licensed with prejudice on October 30th 2020.
On March 1, 2021 Petitioner filed an appeal with the Court of Appeals
Maryland together with a Petition for Writ of Certiorari for the case of the Driver
Education Instructors License and Certification badge. The Petition for Wirt for
Certiorari for the driver education instructors license was filed on time. On April 23,
2021, Petitioner received an Order that the Writ of Certiorari has been denied by the
Court of Appeals Maryland, and on June 8, 2021, the case of the driver instructors
licensed, and certification was dismissed again with prejudice.
Several questions were raised by Petitioner to the Clerk and Chief Judge as to
why the Case of the Driver Education Instructors license was not showing that review
by certiorari is desirable and in public interest? Petitioner was licensed by the
Maryland Motor Vehicle Administration to provide thirty-six (36) hours Driver
Education program to the public. All of Maryland Code Regulations provides in
relevant part in 11.23.01.12.13.14.15.16.17 Driving Schools, for Driver Education
13

Instructor License and Certification Badge were followed by Petitioner. More so,
Petitioner was licensed to provide classroom and behind the wheel lessons to the
public in the State of Maryland by the Maryland Motor Vehicle Administration.
Therefore, shows that the Driver Education Instructor Licensed and Certification of
Petitioner is desirable and in the public interest. The Clerk, Suzanne Johnson and
the Chief Judge Mary Ellen Barbera of the Maryland Court of Appeals failed to
answer questions presented by Petitioner dated May 25, 2021. See Appendix 31a36a,42a-75a.
There was too many mistakes and irregularities on Court Orders and decisions
of the Maryland Court of Appeals. Petitioner noticed a significant errors on Chief
Mary Ellen Barbera’s Order dated April 23rd 2021 stating the “Petitioner filed a Writ
of Certiorari at the Court of Special Appeals” Maryland. This was not correct, as
Petitioner filed Petition of Writ for Certiorari with the Court of Appeals Maryland
and not vice versa. Subsequently, on the Court of Appeals letter dated May 13, 2021
the court stated, “We are treating your pleading as motion for reconsideration” see
Appendix 35a. Petitioner has grounds in the case of the Driver Education Instructors
License and Certification badge and did not make a plea with the Court of Appeals
Maryland. This was a false claim by the court, Petitioner Objected to the Chief
Judge’s order dated May 10, 2021. As such, Objection by Petitioner and a plea are
two different factors. See Appendix 65a-75a.
It is evident that clerical mistakes can be corrected by the courts, but the Court
of Appeals failed to do so, as such dismissed the case of the Driver Education
14

Instructors license and Certification Badge. Federal rule of Civil Procedures Rule 60
(a) Relief from a Judgement or Order 1.

1 Rule 60 (a) Relief from a judgement or Order. Corrections based on Clerical Mistakes
Oversights and Omissions; The Court may correct a clerical mistake or a mistake arising
from oversight or omission whenever one is found in a judgement, order, or other part
of the record. The court may do so on motion or on its own, with or without notice. But
after an appeal has been docketed in the appellate court and while it is pending, such a
mistake may be corrected only with the appellate court’s leave

15

ARGUMENT

On November 14, 2019 the Administrative court failed to follow Procedural due
process in the case of Petitioner’s Driver Education Instructor’s License and
Certification Badge. There was no full hearing conducted, no witnesses testified,
neither did the court provide Petitioner a right to a Counsel. As such, Petitioner did
not commit any violation in the statutes since May 2017 to March 2019.

The

Administrative Law Judge Steven Adler’s decision was legally wrong and based its
decisions patently unreliable evidence. The decisions and order of revoking
Petitioner’s Driver Education License and Certification Badge not only puts
Petitioner out of work but also effectively forces Petitioner into unemployment and
indigence.
The Administrative Court ruling in favor of the Maryland Motor Vehicle
Administration was unfair and shows lack of credibility. The Administrative Court
revoked the Driver Education Instructor Licensed and Certification badge of
petitioner without following procedural due process. In as much, the decision of the
Administrative court dated November 14, 2019 is a proof of how the Maryland Motor
Vehicle Administration wrongfully used false allegations of Shepherds Driving
School into the case and decision of the Driver Education Instructors License and
Certification Badge of Petitioner. False allegations such as, Petitioner employed an
individual who was not licensed as a driving instructor to provide any driving
instruction for compensation and Petitioner failed to make operation and student
16

records available for inspection by the Administration during the school business
hours.

These are false allegations made by the Maryland Motor Vehicle

Administration and their Administrator Christine Nizer to damage the character and
reputation of Petitioner, her husband Smith Kwame Oliver Vodi and Shepherds
Driving School.
Petitioner is kindly directing this Court to the case of Shepherds Driving
School. Information of instructors that drove alleged student Leena Mohammed
records were handed over to the Maryland Motor Vehicle Administration and can be
seen for verification. See appendix 109a-114a, 147a-169a. Mr. Jipei Cui the other
so-called alleged student did not attend Shepherds Driving School. A copy of Mr.
Jipei Cui’s Learners Instructional Permit was handed over to Administrative Law
Judge Michael Wallace during the Administrative hearing. Mr. Jipei Cui’s learners
permit can be verified by this court from the case of Shepherds Driving School.
Evidently, all students that attended Shepherds Driving School in May 2017-March
2019 were driven by nine (9) instructors including Petitioner. So, it is a false claim
by the Maryland Motor Vehicle Administration that Petitioner’s husband Smith
Kwame Oliver Vodi drove students. Mr. Smith Vodi was hired as the General
Manager and performed such duties. As such, there is no rule in Maryland Code of
Regulations 11.23.01 that prohibits him to be hired as the General Manager for the
Driving School. The Administrative court incorporating the case of Shepherds
Driving School into Petitioner Driver Education License and Certification Badge is

17

incoherent and it’s in violation of Petitioner’s right to hold a Driver Education
Instructor’s License and Certification Badge.
Administrative Law Judge Steven Adler falsely claimed in his ruling on Motion
for Summary decision dated November 14, 2019 that Petitioner failed to submit a
response to the motion filed by the Maryland Motor Vehicle Administration dated
October 11, 2019. This was not correct. It’s unfortunate that the said motion falsely
claimed by the Maryland Motor Vehicle Administration was not received by mail as
claimed by the Administrative court. The Maryland Motor Vehicle Administration
can manipulate the mailing system with court decisions of correspondences for
Petitioner goes to the wrong address. See Appendix 25a-32a, 144a. If so, how could a
response be filed by Petitioner when there was no full hearing conducted for the case
of the Driver Instructors License and Certification Badge? It is evident On October
15, 2019 that there should be a full hearing for a motion to be submitted to the
Administrative Court. Administrative Law Judge Steven Adler boldly said during the
October 15, 2019 hearing that he was there to “INVESTIGATE” and not to conduct a
hearing.

Administrative Law Judge Steven Adler promised to liaise with his

Secretary and set up another date for full hearing for both parties.

The

Administrative Court introduce in its brief hearing on 10/15/2019 of the case of
Petitioner Driver Education Licensed and Certification Badge without any sworn
statements or testimonies from both parties. The Administrative Court failed to
follow the procedural due process in the case of the Driver Education Instructor
License and Certification Badge.

18

Evidence submitted by the Maryland Motor Vehicle Administration was
Petitioner’s own evidences. This was very manipulative and shows lack of credibility
by the Administrative court and the Maryland Motor Vehicle Administration.
Petitioner’s presented evidences to Administrative Law Judge Steven Adler, but the
evidences were not accepted by ALJ Steven Adler during the Administrative hearing.
However, even in Administrative court proceedings the authenticity of evidence must
be established, Department of Public Safety & Correctional Services v. Cole, 79 342
Md. and 12 (1996). The Administration introduce evidence of the Maryland Motor
Vehicle Administration. As such, there was no full hearing conducted and no
swearing of oath in the so-called Administrative hearing held on October 15, 2019.
The Maryland Motor Vehicle Administration had Mr. William Kraft as their witness
representing the Administration and David C. Merkin as Counsel.
The Administrative court did not allow Petitioner’s witness to testify neither
submit evidences of the Driver Education Instructors license and Certification Badge.
Even though “Summary judgement is appropriate if there is not ‘genuine issue of
material fact.” Anderson v. Liberty Lobby, Inc., All U.S. 242, (1986) in this case
Petitioner presented evidence but the Administrative Court failed to acknowledge the
evidences. In general, there was no full hearing conducted in the case of Petitioner
Driver Education Instructors license and Certification Badge on October 15, 2019.
See Appendix 123a.
It is the rule of the Maryland Motor Vehicle Administration that Driver
Education Instructors License must be renewed by another institution for the
19

instructor to be recertified as a Driver Education Instructor every two (2) years.
Petitioner filed the case of the Driver Education Instructors license and Certification
Badge with the Circuit Court of Prince Georges County on September 9, 2019 after a
long period of waiting to hear from the Maryland Motor Vehicle Administration of
the May 20, 2019 decision Amendments by Administrative Law Judge Michael
Wallace. The Administrative court intentionally dismissed the case of the Driver
Education Instructors license with prejudice.
Evidently, the Maryland Motor Vehicle Administration has damaged the
character and reputation of Petitioner in its November 14, 2019 decision “analysis”.
Stating in the Administrative court decision their decision falsely used Maryland
Code Ann., Transportation Article 15-104, 15-109, 15-1702, 15-1710 (2012) states (a)
A person may not be licensed under this subtitle unless the person.
(1) Is an individual of good reputation and moral character; (2) Is
licensed to drive under Title 16 of this article. (3)Has completed the
Instructor certification program approved by the Administration;
and (4) Is either; (i) Licensed under Subtitle 7 of this title to conduct
a drivers’ school; or (ii) Employed a driving instructor by a licensed
driver’ school
First, the Administrative court applying the above rules in their November 14,
2019 decisions to the case of the Driver Education Instructor license and Certification
Badge was ridiculous, indicating a false implication jeopardizing Petitioner’s
character and reputations. What the Administrative court and the Maryland Motor
20

Vehicle Administration should know is that Petitioner has a good reputation and
moral character to own both Driver Education Instructors license and a reputable
driving school as Shepherds Driving School reflects Petitioner’s character and
reputation. Petitioner was approved as a Driver Education Instructor and the Owner
of Shepherds Driving School in May 2017-March 7, 2019.

Also, Petitioner is a

graduate from three (3) reputable institutions in the State of Maryland and
Washington District of Columbia respectively. Petitioner is an ordained Minister of
the gospel, and earned these degrees AA, BSc. MSA/PCH in Administration from
accredited Universities and have been a law-abiding Citizen of the United States.
More so, Petitioner has clean records with both the State and Federal based on
her criminal background history that was conducted by the Maryland Motor Vehicle
Administration in 2017 and 2019, See Appendix 92a-94a, 106a.

For the above

reasons, Petitioner is well respected by the society and overly qualified to own a
Driver Education Instructors License and a Driving School in the State of Maryland.
However, Petitioner has a clean driving record, never been arrested, never committed
a crime, never been in jail. It is a show that Petitioner has a moral character. It’s
outrageous, for a big Organization like the Maryland Motor Vehicle Administration
going after ordinary law-abiding citizens with no criminal history, owner of a small
business Shepherds Driving School and trying to bring down the character and
reputation of Petitioner. Close Petitioner’s own driving school business for no valid
reasons.

21

It is the same despicable act the Maryland Motor Vehicle Administration used
towards my husband Smith Kwame Olive Vodi revoked his Driver Education License
and Certification Badge on June 5, 2012. This hate and act of discrimination to law
abiding citizens must stop towards normal citizens that have not commit any
violations or crime in our society. This is unacceptable and it is against the
Constitutional laws.
Second Petitioner is licensed to drive under Title 16 as she owns a full driver’s
licensed and was certified as a driving instructor by the Maryland Motor Vehicle
Administration. See Appendix 92a-95a. Obviously, Petitioner completed the basic
Driver Education Instructor Certification Program with Alfredo’s Driving School at
111 Chinquapin Rd, Annapolis, MD, 21401 and went up to the level of obtaining a
Driver Instructors Permit from the Maryland Motor Vehicle Administration.
Petitioner became a full licensed Driver Education Instructor in May 2017 to teach
both classroom and behind the wheel instruction. Therefore, all requirements by the
Maryland Motor Vehicle Administration as a certified Driver Education Instructor
for both classroom and behind the wheel instructions were met. See Appendix 92a 94a.
Evidently, Petitioner was approved by the Maryland Motor Vehicle
Administration to conduct Driver Education in 2017, an application was submitted
to the department of Driver’s Education Instructional services and was approved to
provide thirty-six hours Driver Education Program in the State of Maryland to the
Public. See Appendix 88a-90a.

During this time Petitioner was the Owner of
22

Shepherds Driving School and performed the duties as both Driver Education
Instructor and a licensed Driving School Owner. Petitioner presented all evidences
during the so-called Administrative hearing, but Administrative Law Judge Steven
Adler failed to accept the evidences but proceeded with the dismissal of the case of
the Driver Instructor License and Certification badge with prejudice. Even though
Judge Adler said he was going to schedule a date and time for a hearing. ALJ Steven
Adler failed to do so with negligence.

The Maryland Motor Vehicle Administration falsely claimed that Petitioner was not
licensed to conduct a driver’s school/Shenherds Driving School License Number
(C00673-) and Driver Education Instructor License Number (354881
Petitioner is referring this court to the Affidavit of Mr. William for the above
accusation. It is clearly shown on the Affidavit of Mr. William Kraft Section Manager
Driver Education Division Maryland Motor Vehicle Administration that Petitioner
was a certified Driver Education Licensed Instructor since May 2017 - June 2019.
See Appendix 124a-125a.

Shepherds driving school was owned, operated by

petitioner, and was approved for driver education services by the Maryland Motor
Vehicle administration on May 24, 2017. Petitioner was certified as a driver
instructor from June 26, 2017 to June 21, 2019. Shepherds Driving School was issued
a Driving School license Number (C00673) and Petitioner was issued a Driver
Education Instructor’s License and Certification Number (35488) by the Maryland

23

Motor vehicle Administration. Apparently, the above claim by the Administrative
court and the Maryland Motor Vehicle Administration is totally false.
Maryland Motor Vehicle falsely claimed that Petitioner was not employed as a
driving instructor by a licensed driving school
Petitioner did driver instructors training with Alfredo’s driving school during
the period 2016-2017, and apparently did classroom training with Greg’s Driving
School. Inc. located at 1502 South Main Street, Mount Airy, MD 21771. Petitioner
Behind the Wheel training was done by State Trainer Earl Garner of the Maryland
Motor Vehicle Administration. All grades and documentations of certification by both
schools were submitted to the Maryland Motor Vehicle Administration before
certification. The rule of the Maryland Motor Vehicle Administration is that all
instructors must go through a driving school for training as part of the process of
becoming a full licensed certified instructor.
As a graduate from a reputable institution, Petitioner met all requirements by
the Maryland Motor Vehicle Administration as a certified Driver Education
Instructor and demonstrated the proficiency in teaching the Maryland Motor Vehicle
Administration approved Curriculum since May 2017, in COMAR 11.23.01.13 Driver
Education Instructor’s License. The Maryland Motor Vehicle Administration wanted
Petitioner to start over the process of becoming a Driver Education Instructor when
Petitioner has been a certified instructor since 2017 - 2019. For a driver Education
Instructor to have his or her Driving Education Instructors License renew he/she
must go through another driving school to get the instructors license renewed.
24

On August 28, 2019 Petitioner received a letter from Ms. Christine Nizer,
Administrator Maryland Motor Vehicle Administration, Driver Education Division
Maryland Motor Vehicle Administration refused to grant Petitioner’s Driver
Education Instructors license and Certification Badge. A copy of the letter was
directed to the Maryland Motor Vehicle Administration section Manager Mr. William
Kraft, Division of driver instructional services. See Appendix 109a - 114a.
Ms. Christine Nizer Administrator, Maryland Motor Vehicle Administration
stated on the letter dated 08/28/2019, that Petitioner have the right under TR12203(B) and 15-110 (a) to request for a hearing within fifteen (15) days from the date
the letter was mailed to Petitioner, and the request should be directed to Mr. William
Kraft section manager, division of driver instructor’s services of the Maryland Motor
Vehicle Administration.
On September 3, 2019 Petitioner sent a letter to the Maryland Motor Vehicle
Administration requested a hearing as instructed on the letter of August 28, 2019.
Petitioner explained in her request to Mr. William Kraft the reasons the application
for the renewal of Petitioner driver instructor’s license was late was due to mistakes
and/ or irregularities on the Administrative court decision of May 20th 2019 for
Shepherds Driving School and there should be no reason why Petitioner should be
denied the renewal of the Driver Education Instructor’s licensed Certification to be
able to work for another driving schools.
On September 17, 2019, Petitioner received a notice of hearing from the
Administrative Court. The hearing was scheduled for October 15, 2019 at 9:30am.
25

There was a brief hearing conducted by the Administrative Court.

The

Administrative Law Judge, Steven V. Adler promised to conduct a full hearing for
both parties as both sides did not fully present their case. See Appendix 123a. During
the hearing Counsel David C, Merkin of the Maryland Motor Vehicle Administration
verbally notified Petitioner that the case of the Driver Education Instructor license
was dismissed. A reply to the verbal dismissal of Counsel David C. Merkin dismissal
dated October 20, 2019 was sent to the Administrative court and the Maryland Motor
Vehicle Administration, but no avail no one from the Administration gets back to
Petitioner on the matter. There was no transcript for the Administrative hearing on
October 15, 2019 from the Administrative presented to the Circuit Court of Prince
Georges County.
Again, Administrative Law Judge Steven Adler had a brief hearing on
10/15/2019, but clearly stated that he was at the hearing to “INVESTIGATE” and not
to conduct a hearing. Judge Steven Adler stated that if a hearing was needed his
Secretary will call both parties to set up a date and time. On October 15, 2019 a copy
of the withdrawal of sponsorship for the renewal of Petitioner’s Driver Education
instructors license from Alcantara Driving School was handed over to Petitioner in
court by Counsel David .C. Merkin. The Maryland Motor Vehicle Administration
intensions for the dismissal of both cases as discussed in the court was with prejudice.
During this time both cases had already been filed with the Circuit Court of Prince
Georges County Maryland on September 9, 2019 was due to the delay by the
Maryland

Motor

Vehicle

Administration.

26

The

Maryland

Motor

Vehicle

Administration decided to dismiss both cases without contacting Petitioner to file a
Motion to reject the decision of the Administrative Law Judge Steven Adler. The
decision of the Administrative court was unreasonable and unfair.
There was a lot of conspiracy and manipulation transpired in the court room
between the Maryland Motor Vehicle Administration Counsel David C. Merkin,
William Kraft, Section Manager driver education services Maryland Motor Vehicle
Administration and Administrative Law Judge Steven Adler.

As explained,

Petitioner did not work for Alcantara Driving School and was waiting to be evaluated
and fulfill all necessary requirements to go behind the wheel with students and
classroom instruction. As such, Petitioner Driver Education Instructors license
expired on June 21, 2019. The Maryland Motor Vehicle Administration failed to
renew Petitioner Driver Education License and Certification Badge and dismissed
the case on November 14, 2019.
On September 9, 2019 Petitioner filed an appeal with the Circuit Court of
Prince Georges County Maryland for the case the Driver Education Instructors
license and Certification Badge against the Maryland Motor Vehicle Administration.
Also, Petitioner requested for a representation of Counsel on the case, but no
representation of Counsel was provided by the Circuit Court of Prince Georges
County Maryland. See Appendix 135a, This is against the Constitutional for
preventing Petitioner the right to a Counsel.
On December 9, 2019 Petitioner handed over a letter to the Clerk of the Circuit
Court of Prince George’s County Maryland and Judge Tiffany Anderson requesting
27

an Amendment made to the party been sued in the person of Mr. William Kraft.
Petitioner immediately made the amendment through the Clerk’s office as requested
by Judge Tiffany Anderson from Mr. William Kraft to the Maryland Motor Vehicle
Administration. See Appendix 133a-134a. Several judicial branches were contacted
for assistance but to no avail none was willing to represent Petitioner in the case of
the driver education instructor’s license. A request for a representation was made
through the Clerk’s office and a separate request was sent to Judge Tiffany
Anderson’s chamber. Both requests were denied by the Circuit Court, and this is
against the VI Amendment of the United States Constitution denying Petitioner the
right to Counsel. See Appendix 135a,
On January 24, 2019 a trial was set at the Circuit Court of Prince Georges
County Maryland and was conducted by Judge Tiffany Anderson. Petitioner wasn’t
allowed to testify neither represented as a Pro se. Judge Tiffany Anderson requested
Petitioner seek a representation but based on petitioner poor experience on the search
for a Counsel, unemployment and lack of financial status, Petitioner was unable to
hire a Counsel in the case of the Driver Education Instructors license and
Certification. Mr. Smith Vodi Petitioner’s witness was present at the trial, but not
allowed to testify.

Judge Tiffany Anderson affirmed the decision of the

Administrative court without no procedural due process and dismissed the case on
01/24/2020 for the Driver Education Instructors licensed and certification Badge with
prejudice, hate and discrimination. See Appendix 21a.

28

On February 7, 2020, Petitioner filed the case of the Driver Education
Instructors License Certification with the Court of Special Appeals Maryland. The
Court of Special Appeals on August 11, 2020 requested the transfer of agency records
from the Circuit Court of Prince Georges County Maryland to the Court of Special
Appeals. The Circuit Court of Prince Georges Maryland failed to do so on time. There
was a delay in the path of the Circuit Court of Prince Georges County transferring
agency records to the Court of Special Appeals. Petitioner submitted three Motions
to Extend time for filing Appellant’s corrected briefs with the inclusion of the Agency
records on the dates as follows; First motion August 26, 2020; Second Motion
September 14, 2020 and Third Motion September 24, 2020, respectively. While
awaits the records from the Circuit Court of Prince Georges County Maryland to be
transferred over to the Court of Special Appeals but the court failed to do so on time.
Finally, Petitioner was able to complete the corrected briefs for the Driver Instructors
license and certification including Agency records and submitted to the Court of
Special Appeals on October 29, 2020. After Petitioner submitted the briefs to the
Court of Special Appeals, the case of the Driver Education Instructors license and
certification was dismissed without no procedural due process. Transfer of Agency
records from the Circuit Court of Prince Georges County Maryland to the Court of
Special Appeals is a requirement that the tribunal prepare record of the evidence
presented as stated in the Fifth and fourteenth Amendments of the United States
Constitution, but the court failed to do so and dismiss the case of the Driver Education
Instructors licensed and Certification Badge.

29

Petitioner filed a Petition for Writ of Certiorari with the Maryland Court of
Appeals on March 1, 2021. After 6 weeks the court dismissed the Petitioner for Writ
of Certiorari claiming that the Writ of Certiorari has no show and was not desirable
in public interest.

The Court of Appeals had the case of the Driver Education

Instructors license and certification badge together with Shepherds Driving School
stating that both cases have no show, and it is not desirable in public interest.
However, Petitioner was licensed by the Maryland Motor Vehicle Administration as
a certified instructor to conduct business as a Driver Education Instructor to provide
service to the public in the State of Maryland. Evidently, Petitioner fulfilled all
requirements in COMAR 11.23.01 for Driving School, and Driver Instructors License
and certification as a requirement by the Maryland Motor Vehicle Administration.
Petitioner was licensed for both classroom and behind the wheel instruction. The
Clerks and Judges of the Court of Appeals failed to acknowledge the failure of the
transfer of Agency records in the case of Petitioner Driver Education Instructors
licensed and certification badge from the Circuit Court of Prince Georges County
Maryland. A request for a pickup of Agency records by Sir Speedy for copies to be
made from the Court of Special Appeals was submitted on 09/29/2021. See Appendix
80a-81a.
Evidently, there was a lot of errors on the decisions from the Court of Appeals
as the court failed to explain its decision when questioned by Petitioner except denied
the Petition for Writ of Certiorari and dismiss the case of the Driver Education
Instructors licensed and certification badge with prejudice.

30

It is Petitioner’s humble request that this Court call for the original transcripts
from the Office of Administrative hearing (OAH) brief hearing held on October 15,
2019, and the Circuit Court of Prince Georges County Maryland for the case of
Petitioner Driver Education Instructors Licensed and Certification Badge. See the
blatant lies, fake decisions, and the abuse of power by the Maryland Motor Vehicle
Administration in the court proceedings for the Driver Education Instructors licensed
and Certification. Petitioner did not commit any violation since 2017 - May 2019.
Revoking the Driver Education Instructors license and Certification badge of
Petitioner was unreasonable by the Maryland Motor Vehicle Administration. As a
United States Citizen, Petitioner deserve the right to a fair trial and request that this
Court hold the lower courts accountable for going against the V, VI, and XIV
Amendments of the United States Constitution in the case of the Driver Education
Instructors License and Certification Badge.

31

REASONS FOR GRANTING THE PETITION
A

To avoid incorrect decisions of the right to Procedural due process,

and the right to Counsel of this case. The decisions of the lower courts were
void since the start of the case. This Court should clarify the “decisions” of
the courts denying and dismissing the case of Petitioner Driver Education
Instructors Licensed and Certification Badge.
The Office of Administrative Hearing (OAH) in Maryland did not follow the
procedural due process in the case of the Driver Education Instructors License and
Certification Badge. This is in violation of Amendment XIV of the United States
Constitution.
The Maryland Motor Vehicle Administration falsely claimed that Petitioner
was not licensed to conduct a driving school
This is totally a false

allegation by the Maryland Motor Vehicle

Administration as Petitioner was licensed to conduct a driving school. Maryland of
Regulations 11.23.01.04.05(A)(B)(C) Applying for driving school was adhered by
Petitioner. COMAR 11.23.01.05 Applying for a Driving School License was followed
accordingly as a requirement by the Maryland Motor Vehicle Administration.
Evidently Petitioner was given a driving school operational license number as
(C00673), For Shepherds Driving School’s and was issued by the Maryland Motor
Vehicle Administration. This was a requirement of all driving school in the State of
32

Maryland.

All requirement for Driving School’s in Maryland Code of Regulations

11.23.01 for the operation of a Driving School was followed by Petitioner. If Petitioner
wasn’t licensed to conduct a Driving School, How did Shepherds Driving School
conduct business operation since May 2017- March 7, 2019? As such, how did the
Maryland Motor Vehicle Inspectors got into the driving school requesting for student
records? How did Shepherds driving school came into existence? and how did the
driving school get licensed, insured, and bonded by the State of Maryland? Petitioner
totally disagree with the allegations by Administrative Law Judge Steven Adler. This
was a clear indication of a false representation by the Maryland Motor Vehicle
Administration.
The Maryland Motor Vehicle Administration falsely claimed that Petitioner
was not employed as a Driving Instructor by a license Driving School.
Maryland

Code

of

Regulations

11.23.01.15(A)(B)(C)(D)

rules

were

acknowledged and followed by Petitioner. Copies of Petitioner schools’ qualifications
was submitted by Alfredo’s Driving School and Greg’s Driving School was handed
over by both schools to the Maryland Motor Vehicle Administration as a verification
that Petitioner went through the required training process to become a Certified
Driver Education Licensed Instructor.

Evidently, Petitioner was employed by

Alfredo’s Driving School in Annapolis Maryland before receiving a driver instructors
permit from the Maryland Motor Vehicle Administration. Petitioner took advance
Behind the Wheel Advanced Training by State Trainer Earl Gary Garner who
submitted behind the wheel scores to the Maryland Motor Vehicle Administration.
33

The Court of Special Appeals and the Circuit Court of Prince Georges County
Maryland failed to transfer Agency records with its inclusion at the beginning of the
case of the Driver Education Instructors licensed and certification Badge. Failing to
transfer Office of Administrative Hearing (OAH) and other Agency records by the
tribunal is against the constitutional right of the Petitioner. As such the delay of the
transfer of the OAH Agency records by the Circuit Court of Prince Georges County
Maryland made Petitioner not to complete its third and corrected briefs on time.
Therefore, with no Agency records Petitioner’s corrected Briefs would not be
submitted to the Court at all. Eventually, the Office of Administrative Agency
records were transferred over to the Court of Special Appeals on September 8, 2020
but Petitioner was not notified by the court regarding the arrival of the records until
September 22, 2020 the Clerk Gregory Hilton of the Court of Special Appeals
confirmed over a telephone conversation with Mr. Smith Vodi that the records have
arrived at the court. The Clerk recommended that Sir Speedy picked up the records
to make copies. See Appendix 81a, The court acted with negligence, deliberately
issued fake orders dismiss the case of the Driver Education Instructors licensed and
Certification Badge with prejudice.
As explained, the Administrative Court lack procedural due process and
evidently proved that the decision of November 14, 2019 supported by insufficient
evidence, and even assuming the allegations were proven, the resulting punishment
of revoking Petitioner Driver Education Instructor’s License and Certification Badge
was unfair.

34

The United State Court of Appeals for the Fourth Circuit entered a decision in
conflict with prior decisions from the Court of Special Appeals, Circuit Court of Prince
Georges County, and the Administrative court. The Court of Appeals based solely on
the same decisions that the courts as so far avoided the respectable, and ethical aspect
of judicial proceedings.

It is a fact that the courts have acted despicable in an

unlawful manner that the Clerks, Judges and Chief judges of the courts connived
with the Maryland Motor Vehicle Administration giving out FAKE Orders based on
false findings and conclusion of the law in the case of Petitioner Driver Education
Instructors licensed and Certification Badge. The Courts continuously denying and
dismissing Petitioner’s appeal to cover up Petitioner’s $5,000,000.00 (FIVE MILLION
DOLLARS) compensation request to the courts against the Maryland Motor Vehicle
Administration for both the Driver Education Instructors licensed and certification
Badge, damages caused to Shepherds Driving School and its employees.
This case presents this Court with an opportunity to clarify the lower court
“decisions” for not following the procedural due process in the case of the Driver
Education Instructors licensed and Certification Badge. The constitutional laws were
not followed. It is Petitioner’s humble request that this court order the Maryland
Motor Vehicle Administration to compensate Petitioner for lost income, wages, time,
and money wasted, including Petitioner’s credibility, defamation of character and the
lack of credibility to teach Driver Education in the State of Maryland. This is a clear
act of hate, discrimination, and prejudice by the Maryland Motor Vehicle
Administration against a black owned female instructor and driving school owner,

35

graduated with no jobs, thriving to make ends meet, certified as a licensed Driver
Education Instructor with no criminal history or any violations, revoked the Driver
Education License not to conduct business in the State of Maryland.
The revocation of Petitioner’s Driver Education Instructors Licensed, and
Certification Badge has affected Petitioner both physical and financially in terms of
getting a job and to be able to work for other driving schools in the State of Maryland.
Also, Petitioner request that this court Reinstate the Driver Education instructors
licensed and Certification Badge.

36

CONCLUSION
For these foregoing reasons, Petitioner respectfully request that this Court
issue a Writ of Certiorari to review the decisions of the Maryland Court of Appeals.

DATED this

day of August, 2021.

Respectfully submitted,

Yvonne O. Reignat-Vodi
Petitioner/ Pro se
1810 Metzerott Road #47
Adelphi, Md, 20783
Tel: 240-475-1876/240-393-9125
Email: pastor@shenherdsofzion.org

37

